<html>
<title> - GUANTANAMO BAY: THE REMAINING DETAINEES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                     GUANTANAMO BAY: THE REMAINING


                               DETAINEES

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 24, 2016

                               __________

                           Serial No. 114-119

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                      
                      
                              ________
               
                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 23-643 PDF                WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                         
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
                 Mike Howell, Professional Staff Member
                           Willie Marx, Clerk

                                 ------                                

                   Subcommittee on National Security

                    RON DeSANTIS, Florida, Chairman
JOHN L. MICA, Florida                STEPHEN F. LYNCH, Massachusetts, 
JOHN J. DUNCAN, JR., Tennessee           Ranking Member
JODY B. HICE, Georgia                ROBIN KELLY, Illinois
STEVE RUSSELL, Oklahoma, Vice Chair  BRENDA L. LAWRENCE, Michigan
WILL HURD, Texas                     TED LIEU, California



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 24, 2016.....................................     1

                               WITNESSES

Mr. Thomas Joscelyn, Senior Fellow, Foundation for Defense of 
  Democracies
    Oral Statement...............................................     4
    Written Statement............................................     7
Mr. Kirk Lippold, United States Navy (Retired) , Commanding 
  Officer of the USS Cole
    Oral Statement...............................................    19
    Written Statement............................................    21
Mr. Jay Alan Liotta, Former Deputy Assistant Secretary for 
  Detainee Affairs, U.S. Department of Defense
    Oral Statement...............................................    32
    Written Statement............................................    35
Mr. Alberto Mora, Senior Fellow, Carr Center for Human Rights 
  Policy, Harvard Kennedy School of Government
    Oral Statement...............................................    41
    Written Statement............................................    43


                GUANTANAMO BAY: THE REMAINING DETAINEES

                              ----------                              


                         Tuesday, May 24, 2016

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:52 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the subcommittee] presiding.
    Present: Representatives DeSantis, Mica, Duncan, Hice, 
Hurd, Lynch, and Lieu.
    Mr. DeSantis. The Subcommittee on National Security will 
come to order. Without objection, the chair is authorized to 
declare a recess at any time.
    Since the first detainees arrived in 2002, the United 
States' detention facility at Guantanamo Bay, Cuba, has housed 
a total of 779 detainees. There are currently 80 detainees 
remaining in Guantanamo Bay. The remaining detainee population 
is generally composed of hardened and unrepentant terrorist. 
The transfer of any of these detainees from Guantanamo Bay to 
another country risks harming America's national security, and 
we cannot be certain that a particular detainee will return to 
terrorism. We can say that the chance of recidivism with these 
particular detainees is high.
    According to the most recent statistics from the Office of 
the Director of National Intelligence, 204 out of the 676 
released detainees are either confirmed to have reengaged or 
are suspected of reengaging in terrorist activities. Many of 
these detainees were thought to no longer represent a threat 
when they were released, yet they nevertheless returned to 
terrorism.
    The Obama administration has acknowledged that Americans 
have been killed at the hands of detainees who had previously 
been released from Gitmo. When President Obama took office, he 
inherited a largely high-risk population of 240 detainees. One 
of the President's first actions in office was to issue an 
executive order calling for the closure of the detention 
facilities at Guantanamo Bay. The administration failed to 
secure congressional support for closing Gitmo, so it has 
attempted to empty out the facility by transferring detainees 
that they had previously deemed too dangerous to transfer.
    Once a detainee is earmarked for transfer, an interagency 
team works with potential receiving countries to negotiate 
security and humanitarian assurances regarding the detainee. 
These agreements, though, are classified. It has not been made 
clear whether the administration is tracking compliance with 
these agreements or has just allowed risks to mount. The 
administration has recently approved transfers of detainees to 
countries with no track record of receiving detainees and with 
limited intelligence capabilities, including Ghana and Senegal.
    The administration no doubt is ideologically committed to 
Guantanamo Bay. The President's conclusion that the detention 
facility should be closed is based in part on his idea that the 
facility is a recruiting tool for Islamic jihadists, but this 
represents a misunderstanding of the nature of the terrorist 
threats we face. Just last week in Mosul, radical Islamic 
terrorists lowered 25 suspected spies into acid. They were 
dissolved alive. These are not the type of people that will 
abandon their jihad against America and our allies simply 
because we close Guantanamo Bay.
    In fact, in the most recent issue of Al-Qaeda's propaganda 
machine, the jihadi author argued that the President's plan to 
close Gitmo would have little effect on recruitment efforts. It 
has been used as a pretext at times to recruit but it is not 
the underlying cause of terrorist activity.
    The only way America can stop radical Islamic terrorism is 
to defeat radical Islamic terrorism. Appeasing terrorists or 
worrying about their feelings simply will not work. The 
administration's effort to close Guantanamo are not aimed as 
securing the United States' national security interests but 
instead at ideological victory.
    Today, we will hear from a panel of experts who are able to 
discuss the dangers inherent in transferring the remaining 
detainees. They will also be able to speak to problems with 
past transfers and to elaborate on why the administration 
continues to repeat some of the mistakes of the past. I thank 
each of them for joining us today.
    Mr. DeSantis. And I also would like to recognize the 
ranking member of the Subcommittee on National Security, the 
gentleman from Massachusetts, Mr. Lynch, for his opening 
statement.
    Mr. Lynch. Thank you, Mr. Chairman. I want to thank you for 
holding this hearing to examine the national security issues 
related to the detention facility at the U.S. naval station at 
Guantanamo Bay, Cuba.
    I would also like to thank today's witnesses for helping 
this subcommittee with its work.
    As reported by the Department of Defense, nearly 800 
detainees have been held at Guantanamo since 2002, including a 
peak of 684 detainees in June of 2003. Over the past 13 years, 
the detainee population has been dramatically reduced by about 
85 percent, or 691 inmates with more than 530 detainees 
transferred by President Bush and 158 transferred by President 
Obama to the custody of an estimated 60 different countries.
    During my last visit to Guantanamo a couple of years ago, 
we went out to camp 7 where Khalid Sheikh Mohammed and others 
are imprisoned. The number of detainees stood at about 174, but 
today, there are only 80. In accordance with the Defense 
Authorization Act for fiscal year 2016, the Defense Department 
submitted a plan to Congress to resolve the disposition of 
these remaining detainees and implement the President's intent 
to close the facility as a national security imperative. It 
provides that the administration will review detainee 
eligibility for secure transfer to foreign government custody 
or prosecution by a U.S. military commission.
    For detainees who must be subject to continued detention, 
the plan proposes relocation to an appropriate detention 
facility within the continental United States. As such, this 
plan will require explicit congressional approval.
    In support of its plan, the Defense Department reports that 
the cost of operating the detention mission at Guantanamo Bay, 
Cuba, in fiscal year 2015 was about $445 million. It also 
estimates that closure would lower annual operational costs by 
about $140 million and $180 million. I would note that the 
annual cost of operating Gitmo follows the significant 
infrastructure investment that we have already made in the 
facility, very, very nice court and very nice facilities there, 
including $12 million for the courtroom known as the 
Expeditionary Legal Complex. I am not sure we have used that 
yet, though. I wish I had a court like that in my district to 
be honest with you.
    Now, much of the political and legislative debate over 
Guantanamo continues to focus on the very broad question of 
whether closing the facility would serve our national interest. 
That is the question that we are trying to answer today. The 
annual defense authorization bill again includes provisions 
designed to prohibit closure. Now, I--and look, I totally 
understand that, but I also think that Defense Department and 
our wider responsibility should have the flexibility to figure 
out what we are going to do with these folks under the rule of 
law. And if it is prosecution, we ought to prosecute them.
    And we need to reach a determination of that because I 
think a country that relies on the rule of law and is widely 
respected for our implementation under the rule of law, this is 
sort of a backwater. It is an area where the rule of law has 
not definitely been applied here. We are sort of in limbo so we 
have got to figure out what to do.
    National security demands dictate that we do not simply 
remain at a political impasse over the closure. Rather, it is 
imperative that we work on a bipartisan basis to examine the 
threshold issue of whether each detainee poses a threat not 
only to national security in the United States but also that of 
our coalition partners in the global campaign to counter the 
Islamic State and other terrorist organizations.
    In addition, we must assess whether we can securely 
transfer eligible detainees to foreign custody and mitigate 
their potential to return as militants to the battlefield of 
Afghanistan, Syria, and Iraq or conduct terrorist operations 
worldwide.
    As reported by the director of the National Intelligence in 
March of this year, approximately 17.5 percent of former Gitmo 
detainees that have been transferred to other countries are 
confirmed of reengaging in terrorist or insurgent activities. 
That is 118 out of 676 former detainees who are directly 
involved in terrorism or insurgency since the first Guantanamo 
transfers in 2002. This includes 111 detainees transferred 
during the Bush administration and seven detainees transferred 
during the Obama administration. An estimated 12.7 percent of 
all former Guantanamo detainees, 86 altogether, are suspected 
of reengaging in terrorist or insurgent activities.
    In order to strengthen the detainee vetting process, the 
President established an interagency board in 2009 to evaluate 
detainees on a rolling basis and determine their eligibility 
for transfer to a third country, prosecution, or continued 
detention. This is a marked improvement over previous vetting 
conducted by a single agency, the Department of Defense. 
However, continued evidence of terrorist reengagement 
reiterates that we must further enhance our detainee review 
process to assure that custody is handled in a secure and 
responsible manner.
    Mr. Chairman, I look forward to examining these other 
issues with our witnesses, and I yield back the balance of my 
time.
    Mr. DeSantis. I thank the gentleman.
    I will hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    I would also ask unanimous consent to introduce for the 
record a hot-off-the-presses article about two dozen more Gitmo 
detainees poised for release.
    Without objection, so ordered.
    Mr. DeSantis. I will now recognize our panel of witnesses. 
I am pleased to welcome Mr. Tom Joscelyn, senior fellow at the 
Foundation for Defense of Democracies; Commander Kirk Lippold, 
U.S. Navy retired, former commanding officer of the USS Cole; 
Mr. Jay Alan Liotta, former deputy assistant secretary for 
Detainee Affairs at the U.S. Department of Defense; and Mr. 
Alberto Mora, senior fellow at the Carr Center for Human Rights 
Policy at the Harvard Kennedy School of Government, and former 
general counsel of the United States Navy. Mr. Mora will be 
testifying in his personal capacity.
    Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. If you can please rise and raise your 
right hands.
    [Witnesses sworn.]
    Mr. DeSantis. All witnesses answered in the affirmative. 
Please be seated.
    In order to allow time for discussion, please limit your 
remarks to 5 minutes. Your entire written statement will be 
made part of the record.
    And with that, Mr. Joscelyn, you are recognized for 5 
minutes.

                       WITNESS STATEMENTS

                  STATEMENT OF THOMAS JOSCELYN

    Mr. Joscelyn. Well, Chairman DeSantis, Ranking Member 
Lynch, and other members of the committee, thank you for having 
me here today.
    This is the 14th time I've testified before Congress. The 
only other hearing that was highly contentious that I testified 
at was dealing with Guantanamo so it is obviously a hot issue.
    But I'd like to take a step back and look more in terms of 
just the facts of who's remaining at Guantanamo within the four 
walls of the Obama administration's own documents. So this is 
based on what the Obama administration itself has said about 
the remaining detainee population. And I am going to do that 
very quickly through the lens of thinking about Guantanamo as a 
risk-management problem because for years now U.S. officials 
have been transferring detainees, and there is an idea--and 
this goes before the Obama administration--where a number of 
high-risk detainees during the Bush years were also 
transferred. And it's not that they were thought to be 
basically riskless or that they were--pose no recidivism 
threat. It's that there are subjective judgments that are made 
about the ability to mitigate the threat the detainees pose.
    And this is a very tricky process, and I sympathize with 
officials in the U.S. Government who are going through this 
because I don't think that it's easy at all. But when we go 
through this very quickly, you see that the majority of the 
detainees who are left have been identified by the Obama 
administration itself as in that high-risk population.
    And so in 2009 President Obama's task force began reviewing 
the detainee population and looked through 240 detainees. One 
hundred and fifty-six of them were approved for transfer in one 
way or another. Now, as the task force made clear, approved for 
transfer did not mean that they were deemed innocent, nor did 
it mean that they thought that there was no risk of recidivism. 
But they thought they could be safely transferred subject to 
appropriate security measures. In practice I think it's 
difficult for some nations to put in place those appropriate 
security measures.
    Today, we have 80 detainees left, as both of you, 
Congressman, have noted. Of those 80, 65 were deemed by 
President Obama's task force to be too dangerous to transfer. 
So we've gotten--basically, the administration has transferred 
all but 15 of the detainees who were originally said that they 
could transfer. You're down to 65 of the 80 are now--either 
were slated for continued detention on laws of war, meaning the 
authorization of the use of military force in 2001, or referred 
for prosecution. So that's 65 of the 80. And on top of that we 
have 11 Yemeni detainees who were placed in conditional 
detention and four who were approved for transfer.
    Now, that's the current state of the population, and that 
means that 80--over 80 percent of the population was deemed by 
Obama's task force to be in this do-not-transfer sort of--one 
of two do-not-transfer categories.
    Subsequently, the Obama administration set up this Periodic 
Review Board process. This is looking at only the detainees so 
far as I can tell who were placed in continued detention or 
referred for prosecution. And based on publicly available 
documents on the Periodic Review Board's Web site, 29 
decisions--or 29 detainees have had a decision in their case so 
far. Twenty-two of them have ultimately been approved for 
transfer. So these are 29 detainees who, under the Obama's task 
force, were deemed too dangerous to transfer.
    Now, the Periodic Review Board has reviewed them, and in 22 
cases they've actually been approved for transfer. In some of 
these cases on the Periodic Review Board, the Periodic Review 
Board itself determined at one point that these detainees were 
too dangerous to transfer and then subsequently approved for 
them to transfer anyway. So, for example, in 2014 a detainee 
named Faiz Al Kandari was initially denied his transfer and 
then later in the year was approved his transfer. And in the 
initial decision the Periodic Review Board said that they 
thought he was--had an extremist mindset and basically couldn't 
be rehabilitated, and they didn't trust Kuwait to take him in. 
By the end of the year, they said that they thought he was 
willing to reconsider somewhat and that Kuwait could be trusted 
to take him in.
    All of this underscores a very simple fact as far as I'm 
concerned. And because there's some risk of reporting in the 
press, I think it's worth clarifying this here today. You'll 
see the detainees--you'll see the phrase ``cleared for 
release'' in press coverage. Cleared for release, as far as I 
can tell, that phrase is never used by the Periodic Review 
Boards, was never used by Obama's task force, was not used in 
any of these proceedings as far as I can tell. The phrase they 
used, different versions of it, was approved for transfer, 
which means that their--in their minds security measures need 
to be put in place in order to transfer these detainees safely.
    Finally, just recently, the Periodic Review Board actually 
ruled in favor of a detainee named Obaidullah--I'll give you 
the spelling there--whose ISN number is 762. He was somebody 
who was referred for prosecution originally by Obama's task 
force, but then on May 19 a Periodic Review Board ruled that he 
could be a transfer basically because he and his family said 
that he could be reintegrated into society.
    We are at a point now where I think that detainees who were 
referred for prosecution by a task force, as you said, 
Congressman Lynch, they should be tried if they were referred 
for prosecution. We don't have a system in place right now 
because the military commission system has been ground to a 
halt and there's an unwillingness to use the Federal courts to 
do this to try them. But in my mind there are dangerous 
detainees who should be tried and can be tried, and that would 
keep them from going back to the battlefield for sure.
    Thank you.
    [Prepared statement of Mr. Joscelyn follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
            
    
    Mr. DeSantis. The gentleman's time is expired.
    The chair now recognizes Commander Lippold for 5 minutes.

                   STATEMENT OF KIRK LIPPOLD

    Mr. Lippold. Mr. Chairman, Ranking Member Lynch, my name is 
Commander Kirk Lippold, and I appreciate the opportunity to 
testify before the subcommittee.
    In my 26 years in the Navy I was a surface warfare officer 
serving on five different ships, including guided missile 
cruisers and destroyers to protect U.S. national security 
interests across the globe.
    I've experienced firsthand, particularly in my command of 
USS Cole when it was attacked by Al Qaeda terrorists, the 
devastating effects of terrorism. In that attack, the United 
States had failed to realize we were in an undeclared state of 
war with Al Qaeda. Unfortunately, it took the 9/11 attacks 11 
months later to finally put the Department of Defense on a war 
footing. That war effort continues today, and rather than 
abating and slowing, it is picking up in pace and in lethality 
on an unprecedented scale.
    Following my command of USS Cole, I was assigned to the 
Joint Chiefs of Staff and the director for Strategic Plans and 
Policy. My office was tasked to develop the policies on how the 
U.S. military would conduct post-9/11 detainee operations.
    Today, the failure to use Guantanamo Bay has made the U.S. 
less safe and more vulnerable since we no longer have a 
facility with its unique capabilities to leverage the 
intelligence advantage that our nation could possess with its 
use. Keeping Guantanamo Bay open is more important now than 
ever before in the war effort.
    Guantanamo Bay was chosen as the best place for long-term 
detention for a host of legal operational and logistics 
reasons, that there was much more viable strategic 
consideration. It was designed to be an intelligence center for 
excellence in the war on terror. If the U.S. can get terrorists 
off the battlefield and into Guantanamo Bay, we can be 
presented with an unprecedented opportunity to gain a 
comprehensive understanding of how Al Qaeda recruits, trains, 
equips, finances, and conducts these operations. Once we 
understand how they do that, then and only then can we truly 
target them for defeat.
    Today, many people demand that the detention facility be 
closed, and some of the more socially popular reasons include 
it's a recruiting tool, it's too costly, it's a human rights 
embarrassment, the detainees have a right to a trial. All these 
reasons are specious and fail to hold up to the facts when 
people take time to understand the true nature of the facility.
    Guantanamo Bay must become the crown jewel for the United 
States in the intelligence effort to defeat transnational 
terrorist groups. It is not a recruiting tool. Correlation is 
not causation. Just because Gitmo is cited in terrorist 
literature and propaganda, it does not prove it is why recruits 
join terrorist organizations any more than the movie spurred 
the Benghazi attacks. No accurate cost calculations exist to 
justify closing Guantanamo Bay.
    While everyone focuses on the facility to house them, all 
the second- and third-order effects on the local communities, 
not to mention the constitutional issues, have ever been 
addressed.
    The U.S. Navy got out of the prison ship business in the 
1700s. Let's not give that sad period in our history new life. 
Taking a naval warship worth an estimated $2 billion, sending 
it on a short disruptive deployment to serve as a logistics 
platform and prison ship is a waste of a strategic asset when 
the Nation already has a state-of-the-art facility that can 
serve the same purpose, Guantanamo Bay.
    As stipulated under the Geneva conventions and the law of 
armed conflict, the U.S. has a right under international law to 
detain combatants captured on the battlefield until the end of 
the conflict. Al Qaeda and Taliban started this war, not the 
United States, and they continue to wage that war on us today.
    Also, under the law of armed conflict and the conventions, 
there is no requirement for a trial or legal proceeding to 
assess the guilt or innocence of unlawful enemy combatants 
engaged in armed conflict against the United States. The only 
requirement is a periodic review, which the U.S. still does, to 
confirm the circumstances of their capture. Still unclassified 
predictions estimate that about 30 percent of the detainees 
released from Guantanamo Bay have returned to the fight in one 
form or another. Classified estimates put that number even 
higher.
    While it's been almost 15 years since 9/11, the United 
States is still a nation out war. No detainee that is confirmed 
to be an unlawful enemy combatant who is engaged in armed 
conflict against the United States should be released from our 
custody. They should be held in indefinite detention under the 
law of armed conflict or if they meet the trial--criteria for a 
trial by military commission, charge them, try them, convict 
them for their crimes, and hold them accountable.
    In conclusion, the United States Government has a moral 
responsibility and--to the American people and the world to 
ensure that not one more American or any citizen from any 
nation dies at the hands of a terrorist released from 
Guantanamo Bay. Keeping the detention facility open is in the 
best interest of the United States and the American people. The 
threat of ongoing terrorist operations against the United 
States militates that as a nation we should continue using the 
facilities that have already been built there and expand their 
use to ensure that another terrorist attack is not carried out 
against the United States.
    [Prepared statement of Mr. Lippold follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. DeSantis. The gentleman's time is expired.
    The chair now recognizes Mr. Liotta for 5 minutes.

                  STATEMENT OF JAY ALAN LIOTTA

    Mr. Liotta. Chairman DeSantis, Ranking Member Lynch, and 
members of the committee, I would like to thank you for the 
opportunity to be with you here today.
    From February 2004 until January 2015 when I retired after 
more than 32 years of government service, I served as the 
ranking career civilian officer overseeing the Office of 
Detainee Affairs in the Office of the Secretary of Defense. I 
was there when Secretary Rumsfeld created the office in the 
aftermath of the Abu Ghraib prison scandal. I am proud to say 
that over the subsequent 11 years I helped play an instrumental 
role working with seven different deputy assistant secretaries 
of defense during both the Bush and Obama administrations to 
create a sound, credible, and transparent detention policy that 
now many countries across the globe seek to emulate.
    Today, I am retired from government service and do not 
represent the views of the Department of Defense. My statements 
here today are solely my own personal views. With this in mind, 
I would like to focus on the processes used to review the 
threat those in detention still pose and whether our government 
should continue to negotiate the transfer of those whose 
potential threat can be mitigated safely by other countries.
    Secretary Rumsfeld made it clear during his tenure that 
while we would detain those who sought to harm our national 
interests, we were not, nor should we be, the world's jailer. 
During his stewardship of the Department and that of every 
subsequent Secretary of Defense, the Department sought to 
ensure a process to review the continuing level of threat posed 
by each detainee.
    During the Bush administration, DOD relied on the 
Administrative Review Board process chaired by the Deputy 
Secretary of Defense to review all of the available information 
to--at DOD's hands on each detainee to assess their level of 
threat. If a detainee was determined to no longer be a threat, 
he was released. And during the first ARB process, 14 detainees 
were approved for release with no restrictions against them.
    More often, the deputy secretary used the ARB process to 
approve the transfer of individuals who were believed to 
continue to represent some level of threat but a level that can 
be constrained through negotiated security assurances with the 
receiving country. These assurances included the restriction of 
movement from within or outside of the country, a continued 
monitoring of the individual, and where applicable, prosecution 
under local laws.
    During the Bush administration, 214 detainees were 
transferred with such restrictions during the ARB process. When 
President Obama assumed office in 2009, he ordered the Justice 
Department to spearhead an executive review of all information 
available on each detainee. This review assessed all of the 
information available to the ARBs, as well as a considerable 
amount of highly classified intelligence that had not been part 
of the ARB review.
    As a result, the executive task force determined that 126 
detainees were approved for transfer subject to appropriate 
security assurances; 44 were referred for review as prosecution 
candidates; 30 Yemeni detainees were approved for conditional 
detention, meaning that they could be transferred if the 
security situation in Yemen improved or an appropriate 
rehabilitation or third country resettlement option became 
available; and 48 detainees were approved for continued 
detention.
    Following the task force review, there began an aggressive 
move to transfer the 126 detainees recommended for transfer. 
Between 2010 and 2013, I worked successfully with Ambassador 
Dan Fried from the State Department to transfer 87 detainees to 
29 countries and to the U.S. for Federal prosecution.
    Although we continue to explore efforts made during the 
Bush administration to provide a safer security environment in 
Yemen, the attempt by a terrorist to bring down an airplane 
bound for Detroit resulted in President Obama's announcement of 
a moratorium on any transfers to Yemen.
    In October 2013 in an effort to accelerate transfers, 
President Obama instructed the Defense and State Departments to 
appoint special envoys exclusively dedicated to the mission of 
transferring detainees. Since both DOD and the State envoys 
have been in place, 84 detainees have been transferred with 
security assurances to 20 countries.
    By this time, however, it was clear that the information 
used by the task force in 2009 to assess the potential threat 
of a detainee eligible for transfer was increasingly stale. So 
in November 2013 the Defense Department conducted the first 
Periodic Review Board hearing to determine whether a detainee 
previously determined as not eligible for transfer was still a 
significant threat against the United States and its allies.
    Like the executive order task force, the PRB consisted of 
six voting members, one each from the Office of the Secretary 
of Defense; the Joint Chiefs of Staff; the Department of State, 
Homeland Security, Justice; and from the Office of the Director 
of National Intelligence.
    Although the PRBs are administrative--a military 
administrative procedure and not a judicial or a penal process, 
the detainees can opt to be represented by both military 
representatives and legal counsel. In addition, the detainee is 
afforded the opportunity to address the board and directly 
answer their questions, which makes the process more like a 
parole board review in the American penal system.
    Since the first PRB, there have been 43 hearings for 39 
detainees. Of these 43 hearings, 11 detainees were determined 
to remain in continued detention, 21 had their status changed 
to transfer, and 11 decisions are still pending. Of those whose 
status was changed to transfer, nine have since been the 
transferred with security assurances, and the remaining 12 are 
at Gitmo.
    Finally, allow me to address the issue of detainees who 
have returned to the fight since their release from--their 
transfer from Gitmo. The intelligence community assessed in its 
most recent unclassified report that 204 of the 606 former 
Guantanamo detainees are suspected or confirmed to have 
returned to the fight. This represents about 30 percent of the 
detainees transferred. Moreover, the intelligence community 
notes that transfers to countries with ongoing conflicts in 
internal stability, as well as recruitment by insurgent 
terrorist organizations, poses problems with transfers.
    No one wants to see a detainee who is transferred return to 
the fight. The Congress has sought, through varying degrees of 
legislation, to try and prevent detainees from reengaging once 
transferred, but the reality is the only way to prevent a 
detainee's return to the fight is to never transfer them from 
Gitmo. But as the PRBs continue to show, that simply is not a 
feasible option for many of the detainees who indeed no longer 
wish to pursue terrorist objectives. And as Secretary Rumsfeld 
once warned, it would turn us into the world's jailer.
    Thank you very much for my time.
    [Prepared statement of Mr. Liotta follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Mr. DeSantis. The gentleman's time is expired.
    The chair now recognizes Mr. Mora for 5 minutes.

                   STATEMENT OF ALBERTO MORA

    Mr. Mora. Mr. Chairman, Ranking Member Lynch, and members 
of the subcommittee, I want to thank you for inviting me here 
today to participate in this important hearing. I will focus my 
brief comments on the impact that the closure of Guantanamo 
would have on the United States national security interests.
    In my capacity as Navy general counsel in the years after 
9/11, I was deeply involved in the legal and policy issues 
related to the detention, interrogation, and status review of 
detainees held at Guantanamo. Based on my experience and 
judgment, I believe that closing Guantanamo would significantly 
enhance U.S. national security.
    And there are many others who share this view. In addition 
to Presidents Bush and Obama, five former and current 
Secretaries of Defense and five chairman of the Joint Chiefs of 
Staff have supported closing Guantanamo, as have seven former 
Secretaries of State across both Republican and Democratic 
administrations.
    Earlier this year, 36 retired generals and admirals, 
including General Charles Krulak, the former commandant of the 
Marine Corps; and Major General Michael Lehnert, the commander 
in charge of setting up the detention facility, wrote to 
Congress urging that it help close Guantanamo.
    These are the five reasons to close Guantanamo: first, 
because there's no longer any unique legal reason to use the 
facility. As we know, Guantanamo is no longer outside the 
jurisdiction of the U.S. Federal courts, and this was a 
principal reason for its selection in the first place. Thus, 
there is no longer any significant legal advantage to holding 
detainees in Guantanamo as opposed to holding them in Federal 
detention facilities in the United States.
    Second, because Guantanamo simply costs too much. 
Guantanamo costs the U.S. taxpayer $445 million a year or about 
$5.56 million per detainee annually compared to Federal 
facilities that incarcerate prisoners at a maximum cost of 
about $78,000 per prisoner per year. This is waste in its 
purest form.
    Third, because Guantanamo requires and constitutes a 
wasteful use of scarce military personnel. Currently, there are 
approximately 1,200 soldiers guarding a mere 80 detainees in 
Guantanamo. Given that this function could easily be 
centralized, this represents a highly wasteful use of scarce 
military personnel.
    Fourth, because Guantanamo does not provide any unique 
security function that is not already being provided by the 
Federal prison system. Stateside detention facilities are 
currently holding at least 443 convicted terrorists in 
facilities located across 21 U.S. States, including a number of 
high-level Al-Qaeda plotters and even one former Guantanamo 
detainee. There is no evidence that holding these men within 
the United States has presented any danger to local 
communities. This evidence--there is evidence, however, that 
Guantanamo is therefore not uniquely secure.
    And fifth and most important, because the foreign policy 
national security costs of maintaining Guantanamo as a 
detention facility are too high and outweigh the benefit that 
it provides.
    Fairly or unfairly, Guantanamo today is regarded by 
millions around the world as a symbol of American injustice and 
cruelty. Because of this, Guantanamo has contributed to a loss 
of American lives overseas. Let me explain how. A recently 
discovered 2006 U.S. diplomatic cable from our embassy in 
Kuwait reported on a meeting of senior U.S. military 
intelligence and diplomatic officials to review our 
counterterrorism strategy in Iraq, including the causes for 
terrorist inflows in theory. I should mention that Senator--
rather general Stanley McChrystal was present and participated 
in that meeting.
    The cable states, and I quote, ``The primary motivator for 
most terrorist and foreign fighters, as reported by U.S. 
military intelligence, remains perceived U.S. abuses of and 
lack of due process for detainees at Abu Ghraib and Guantanamo 
Bay, making this issue a key driver of terrorist and foreign 
fighters flows and a key element undermining international 
confidence in the United States' ability to conduct an 
effective war on terrorism that remains true to American 
values.''
    Although that cable was written in 2006, in 2013 the 
director of National Intelligence stated that ``Guantanamo 
continues to serve as a propaganda tool in service of Al-
Qaeda's false narratives and justifications for waging global 
jihad against the United States.''
    By continuing to serve as a symbol of American injustice, 
Guantanamo contributes to anti-Americanism, diminishes public 
support for U.S. policies in allied nations, contributes to and 
continues to be used by dictators in repressive regimes to 
justify their own abuse of detention policies.
    And concluding, Guantanamo is too expensive, too 
inefficient, and too wasteful of scarce military resources. It 
provides no additional security to what is routinely provided 
every single day by Federal prisons in the United States to 
terrorists as dangerous as any in Guantanamo and critically, it 
provides ammunition to America's enemies to mischaracterize our 
values, our policies, and our objectives in the war on terror.
    Mr. Chairman, Guantanamo is not an asset, it's a liability. 
I thank the committee again and look forward to answering your 
questions.
    [Prepared statement of Mr. Mora follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. DeSantis. The gentleman's time is expired. The chair 
now recognizes himself for 5 minutes.
    Commander, what role did the facility at Gitmo play in 
sparking the terrorists to attack the USS Cole?
    Mr. Lippold. The facility did not exist back then. It 
played no role.
    Mr. DeSantis. And the facility also did not exist in the 
embassy bombings in '98, correct?
    Mr. Lippold. It didn't exist for the embassy bombings or 
the ----
    Mr. DeSantis. Or the WTC ----
    Mr. Lippold. It did not exist ----
    Mr. DeSantis.--in '93, and of course it did not exist for 
the 9/11 2001 attacks, correct?
    Mr. Lippold. That's correct, Mr. Chairman.
    Mr. DeSantis. Now, the administration recently released 
Mashur Abdallah Muqbil Ahmed al Sabri, who is connected to the 
Cole bombing. Do you think that that release was in the 
national security interests of our country?
    Mr. Lippold. Absolutely not. One of the biggest problems 
with that release is that he was being held under the law of 
armed conflict. There was not enough evidence, but he was 
directly tied to the attack on USS Cole and was nonetheless 
released because the bar was lowered yet again to allow another 
detainee to go free.
    Mr. DeSantis. Now, have you spoken to any of the families 
of those who had family members killed or injured in the Cole 
bombing about this?
    Mr. Lippold. I stay in touch with them constantly, and they 
were devastated to know that a person who is connected to the 
attack on USS Cole that killed 17 sailors, including their 
loved ones and their friends as far as my crew is concerned, 
was being released by the Obama administration.
    Mr. DeSantis. And ----
    Mr. Lippold. They felt it was unfair and it blindsided 
them, despite the President's promise at a meeting on February 
6, 2009, where he said he would keep the families informed as 
to what he was going to do with the facility and the detainees, 
and he has failed to live up to that promise.
    Mr. DeSantis. So there was no consultation at all?
    Mr. Lippold. Zero.
    Mr. DeSantis. Now, do you believe it is likely that he will 
reengage in terrorism, al Sabri?
    Mr. Lippold. I think there's a good chance. It certainly 
proves that he can do it. And while he does have family and he 
was Yemen background but transferred to Saudi Arabia, there is 
a possibility he will return. We are hoping that the family 
will keep him stable. But again, it is the influence that goes 
on. It is no different than the recidivism rate, much, much 
higher than you see with prisons. It's who you associate with. 
There are still people in Saudi Arabia who have conformed to 
the Wahhabi lifestyle who believe in that forum. They believe 
in jihad, and if he falls into that environment again, I 
believe he will return to the battlefield.
    Mr. DeSantis. Yes, Mr. Mora, putting detainees into 
American prisons, wouldn't that run the risk of American 
prisoners being radicalized?
    Mr. Mora. Mr. Chairman, we already have 443 terrorists in 
American prisons. I think adding a few more is not going to 
appreciably change the risk.
    Mr. DeSantis. So you don't think it will add to the risk at 
all?
    Mr. Mora. I think only marginally.
    Mr. DeSantis. Well, I think there is a problem with radical 
Islam in some of these prisons. I don't want to be adding to 
it.
    Let me ask you, Mr. Joscelyn. The estimate from National 
Intelligence was 30 percent of transferred detainees are either 
suspected or have been confirmed of reengaging in terrorism. Do 
you quibble with those numbers?
    Mr. Joscelyn. The reason I would quibble with it a little 
bit is I don't use the engagement--reengagement percentage. And 
the reason is because they basically--there's a lot of unknown 
in the denominator, so it's basically the confirmed and 
suspected recidivists are the numerator. That assumes that the 
denominator is everybody who's been transferred, but yet there 
are people who've been transfer we don't know what they're 
doing.
    Mr. DeSantis. Exactly. Now, DOD has admitted that Americans 
have died because of released detainees. Do you know how many 
Americans have died as a result of detainees being released 
from Gitmo?
    Mr. Joscelyn. Congressman, I don't know the precise number. 
I know only anecdotal evidence that actually I testified 
previously about a former Gitmo detainee named Mullah Zakir who 
became the Taliban's top military commander. He was transferred 
by the Bush administration to Afghanistan and promptly released 
him. We have firm evidence and there's firm reporting that he 
and his men systematically hunted down U.S. marines in 
Afghanistan, and he led the opposition to President Obama's 
surge in Afghanistan. This was a uniquely lethal individual, 
and it's actually guys like him that I'm most worried about 
being transferred today.
    Mr. DeSantis. And can you discuss, of the current detainee 
population, who specifically are very high risk and that would 
represent a danger to our national security if released?
    Mr. Joscelyn. Well, we have--obviously, you have the 9/11 
plotters. There are a few of them and some other guys who were 
involved in these anti-Western plots. Very quickly, I doubt--I 
hope that those guys won't be transferred. Those are the 
clearest cases. My concern is that there's a layer underneath 
them, guys like I mentioned previously in my testimony who are, 
as far as our assessments go, pretty committed ideologues and 
who can do damage themselves.
    Mr. DeSantis. Great. I think that, you know, what we are 
trying to figure out, we know the administration has 
acknowledged that Americans have been killed as a result of 
some of these detainees who have been released. I wish the 
conflict was over because then we just figure out, but not only 
is the conflict not over, to me the Islamists are on the march. 
If you look at what they are doing in the Middle East, if you 
look at what they are doing in North Africa, if you look at 
what they are doing in Europe now with different cells, this is 
a problem that I think is more acute than it was even before 9/
11, and I think putting these guys back into circulation I 
think it is bad for the security but it is also--it is a 
morale-killer if you have somebody who was involved with the 
Cole go back and go back to terrorism. You know, you are just 
like, geez, what are we doing?
    Well, my time is up. I recognize the gentleman from 
Massachusetts, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you. Just to be clear, of the six that 
were originally--at the peak there were about 686 detainees, 
but by the time President Obama took office, it looks like 440 
of them had already been released. Is that correct, Mr. 
Joscelyn?
    Mr. Joscelyn. Seven hundred and seventy-nine detainees as 
far as I'm aware have been held there at one time or another. 
By January 2009 the population was down to 240.
    Mr. Lynch. Okay. So, yes. So more than 400 were released by 
President Bush. Any indication of any of these folks that were 
released by President Bush killing Americans?
    Mr. Joscelyn. I would say the majority--overwhelming 
majority of known and suspected recidivists at this point come 
from the Bush administration transfers and releases. Some of 
these guys included leaders in Al-Qaeda Arabian Peninsula, 
which has of course targeted the U.S. I don't think they've 
actually killed in the U.S., but that doesn't mean the--or 
Americans, but that doesn't mean the threat to the U.S. isn't 
there. And of course Mullah Zakir was somebody who was 
transferred during the Bush years and it did come back to haunt 
us.
    Mr. Lynch. Okay. Mr. Mora, thank you. And thank you all for 
your testimony. I really appreciate you coming forward here. 
Ironically--you know, I have been to Gitmo. I have actually 
gone into the cells and Khalid Sheikh Mohammed, I have been 
through that facility. As I said in my opening statement, I 
wish that some of my prisons in the United States were as nice 
as what we got going on there at Guantanamo Bay, Cuba, even 
though people--now, if you are wrongly detained, I don't care 
how nice the jail is; it is still in jail and you are wrongly 
imprisoned.
    But, you know, I mean some of these cells, they are a lot 
bigger. I know in Khalid Sheikh Mohammed's case he has got a 
front room and then he has got a back room with a screen on the 
back to the outdoors where actually there is actually sun that 
enters into the back of his cell. He has got a pretty nice 
arrangement there, got an arrow on the floor that points to his 
Mecca so he can pray. He has got, you know, videos and all that 
stuff. And yet you have got this perception out there of 
American injustice for us the way we are treating these 
detainees in Guantanamo.
    You know, I go to the prisons in my district and they are 
very harsh compared to what the inmates and detainees are 
looking at as Guantanamo Bay, Cuba. And then I visit the 
prisons--I have gone into the prisons in Iraq, and you want to 
talk about grim. It just defies reality that people think, you 
know, that this is a recruiting tool for--I know what the 
perceived injustice is, but the reality of the conditions, the 
way we are treating our prisoners, our detainees compared to 
the way a lot of those folks are being treated in places like 
Yemen, like Iraq, some places in Egypt, you hear a lot of that 
among former prisoners in prisons in those countries, it 
defies--I think the perception is very far from reality in 
terms of, you know, what we are doing and what we are trying to 
do as opposed to what people are condemning us for.
    Mr. Liotta, you mentioned that in your job you helped 
reassigned I think you said detainees to 29 different 
countries.
    Mr. Liotta. Correct.
    Mr. Lynch. Yes. Okay. And I notice overall of all these--we 
have reassigned to detainees to 60 different countries. Are any 
of the countries that you have been involved with in 
reassigning detainees to, are any of them reliable, let's say, 
in terms of taking custody of these detainees, keeping them in 
secure environments, not letting them get back to the 
battlefield, are any of the countries that we have reassigned 
to, have they been reliable partners in terms of, you know, 
securing these people, not abusing them, but keeping them in 
prison and keeping these people off the battlefield, any of 
these countries at all?
    Mr. Liotta. Yes, sir. And to be clear, all of the transfers 
that I was involved in involved transfers with security 
assurances, that the country would display and we could assess 
their capability and their willingness, which is different than 
capability, to prevent a detainee from reengaging in the fight. 
And my job was to go and negotiate with these countries and 
then come back and talk--or report to the deputy secretary of 
Defense or the Secretary of Defense and explain to them what 
those capabilities and those willingnesses were and was the 
country able to do that. And ----
    Mr. Lynch. Would you give any of these countries high marks 
and would you give any of them low marks, failing grades?
    Mr. Liotta. It runs the entire spectrum, you're right.
    Mr. Lynch. Do you want to name any of the countries that 
have done a good job?
    Mr. Liotta. Well, I think from my personal perspective I 
think a country that's done a very good job is Saudi Arabia. 
They have an aggressive program that's designed to de-
radicalize not only Guantanamo detainees that are returned to 
Saudi Arabia, but also their own citizens in domestic jihad 
that use attacks. They are under assault every day by Al-Qaeda 
in the Arabian Peninsula, and they have an aggressive effort to 
try to make sure that they can de-radicalize or if they can't 
de-radicalize, that they can imprison and keep from the 
battlefield detainees that would cause harm to them or to us or 
to our allies.
    Mr. Lynch. Let me just ask you the opposite side of the 
coin. Anybody that you would not recommend us, you know, 
relocating or redeploying some of these detainees? Anybody that 
you--any country have seen through your experience immediately 
release people and let them go back to the battlefield?
    Mr. Liotta. I would not make recommendations to the 
Secretary or the deputy secretary if I felt that there was a 
possibility that that was going to happen, that a country would 
not live up to its expectations.
    Mr. Lynch. No, no, I am not saying anybody you reassigned, 
but from your experience of seeing detainees sent to a foreign 
country and then having them go to the battlefield, are there 
any countries that you think are, you know, too permissive in 
releasing those people who are committed to foreign custody?
    Mr. Liotta. Ranking Member Lynch, I'd have to think about 
that. I'm not--can't say off ----
    Mr. Lynch. Okay. That is ----
    Mr. Liotta.--the top of my head.
    Mr. Lynch.--fair enough. No. All right. I am over my time. 
I yield back.
    Mr. DeSantis. The gentleman's time is expired, but I 
appreciate your point about, you know, going to Gitmo, when I 
was in the Navy I was there for a time and it is a very 
professionally run facility. Anybody in this room would rather 
spend a night there than in like the Fallujah jail or something 
like this. I mean, it is just night and day.
    And the people that are guarding that facility are under an 
awful lot of pressure because those detainees are very hostile 
to them, and they know that if they do anything that they are 
all of a sudden going to be subject to--so it is a very 
stressful environment for our uniformed personnel who are 
there.
    The chair now recognizes Mr. Duncan for 5 minutes.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    Do want to go first? You can go first if you want to.
    Mr. DeSantis. Okay. The chair now recognizes Mr. Mica for 5 
minutes.
    Mr. Mica. Sorry. Mr. Mora, you testified that Guantanamo, 
at least our policy there, constitute cruelty?
    Mr. Mora. No, sir. It's perceived as having been a place 
where cruelty was applied to some of the detainees.
    Mr. Mica. Is there cruelty taking place there?
    Mr. Mora. Not now, sir.
    Mr. Mica. Okay. And you have been there?
    Mr. Mora. Yes, sir.
    Mr. Mica. I was there and the chairman also mentioned where 
would you rather spend a night. I saw the treatment of the 
detainees, and I can assure you that my veterans, my seniors, 
many of my people who have worked very hard, none of those 
folks had the--I have many of them in my district who do not 
have the accommodations, the medical care, the recreational 
facilities that we are affording those individuals. I saw no 
cruelty there.
    In fact, the press asked me what I thought when I left, and 
I think it is a quote my kids put on the refrigerator. Their 
dad said--my response was ``it is too good for the bastards.'' 
And I believe that.
    Now, you also talked about due process. Okay. Commander 
Lippold, I guess we lost around 3,000 people of various 
nationalities in 9/11. Are you aware of due process that was 
extended to those individuals who were mass murdered, sir?
    Mr. Lippold. No, sir.
    Mr. Mica. And then troops killed in Afghanistan, I have 
2,172. Some of those detainees killed and slaughtered our 
troops, is that not correct?
    Mr. Lippold. That is correct.
    Mr. Mica. Okay. And were they extended due process, any of 
the troops, before they slaughtered them?
    Mr. Lippold. Well, a due process proceeding actually does 
not apply when you're engaged in law of armed conflict, but 
they were not engaged in a manner where they deserved Geneva 
Convention protections.
    Mr. Mica. These were not part of any sovereign state. They 
are enemy combatants without a country not having normal status 
under the law. Mr. Mora said there is no legal reason for their 
detention, that we could--he questioned the basis on which we 
are detaining these people. Do you agree with that?
    Mr. Lippold. I do not. We have a right under international 
law and the Geneva Convention to detain these combatants for 
the duration of the conflict.
    Mr. Mica. And, let's see. You mentioned the 17 soldiers on 
the USS Cole. They were all given due process before they were 
slaughtered, too, weren't they?
    Mr. Lippold. No.
    Mr. Mica. Okay. Well, again, I am very concerned about what 
has been said here today. And then the number of detainees that 
have been released, I guess the non-classified is about 30 
percent have returned over 200 to re-slaughter Americans, re-
slaughter innocent people. Mr. Joscelyn, Mr. Lippold, is that 
an accurate assessment?
    Mr. Joscelyn. It's accurate, 204 confirmed and suspected 
recidivists.
    Mr. Mica. So even if we let the percentage that Mr. Mora 
wants to again relocate, we risk the possibility or if they 
release them--these are the hardest core of the hardest core 
killers that I guess an independent panel has said these are 
the baddest of the bad, is that correct?
    Mr. Joscelyn. I don't think there's any dispute over the 
majority of the detainees that are left, how much of a risk 
they pose.
    Mr. Lippold. And one of my concerns is for both the Bush 
and Obama administrations is we have released people when we 
are in a state of war that should have been detained because 
they posed a risk. And once we detected there was a recidivism 
rate at all, any transfers out of Guantanamo Bay at that point 
should have stopped. While Secretary of Defense Rumsfeld may 
have said we don't want to be the world's jailer, that's 
putting it in a legal context like it's some criminal action 
backed by 100,000 military. It's not. We're at war.
    Mr. Mica. And there are some places--actually, I think I 
helped get somebody--maybe it was the Khobar Towers murderers 
back to Saudi Arabia. I thought it was fitting to get them back 
there because they behead them, and I thought that that was 
adequate due process for those that slaughtered one of the high 
school students who I spoke at his graduation and then I spoke 
at his funeral. He was slaughtered.
    And I stood with another Member of Congress at Khobar 
Towers, and I will never forget walking through there seeing 
the images of our soldiers, their bodies had been blasted 
against the walls, a bloody imprint was there, and then walking 
down the hallways as I saw the blood trail of people trying to 
get out of the building, our soldiers who they slaughtered, 
they didn't have due process.
    Sorry, Mr. Mora. I yield back.
    Mr. DeSantis. The gentleman yields back. Seeing nobody on 
the Democratic side, the chair will now recognize Mr. Duncan 
for 5 minutes.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    I want to read a 1-minute speech that I gave on the Floor 
on November 20, 2013, 2-1/2 years ago. Yesterday, the 
Washington Times reported that the U.S. is now spending 
millions on life skills and art seminars for prisoners at 
Guantanamo Bay in Cuba. The paper said a multimillion-dollar 
Federal contract is teaching Gitmo detainees basic landscaping, 
calligraphy, and Microsoft PowerPoint, among other seminars, in 
addition to library services and special food, and Mr. Mica 
mentioned recreation facilities.
    Last July, the Comptroller of the Defense Department 
reported that the cost of keeping Guantanamo prison open during 
2013 would be an astounding $454 million for just 164 
prisoners. This comes out to roughly $2.7 million per year for 
each one of these detainees held in the prison camp. This 
compares to $72,000 per year per prisoner in Federal high-
security prisons, super max prisons, and $34,000 in an average 
Federal prison. Because the Federal Government is so wasteful 
and inefficient, States are housing State prisoners for much 
less than that.
    The taxpayers of this nation should not be forced to spend 
$454 million to give the good life to former terrorists. They 
should be sent to the most unpleasant prison in the U.S., but 
this and other abuses of U.S. taxpayers will continue until we 
drastically downsize the Federal Government and greatly 
decrease its funding.
    Now, we have a report that says this: At the beginning of 
2015 the prison held 122 detainees; at the end of 2015 it held 
107 detainees. Now, we hear we are down to 80. And this report 
says over the course of 2015 the absolute minimum cost ranged 
between $3.7 million and $4.2 million per year for each 
detainee.
    I just had 43 students and teachers from Washburn High 
School, a very rural school in east Tennessee, and I told them 
I was coming to this hearing and how much it was costing per 
prisoner, and one of the young high school students says can I 
get in?
    I think it is really sad that we are spending this much 
money per prisoner when we could put them in a super max prison 
for a tiny fraction of what we are spending. I think it is 
ridiculous, and I think any true fiscal conservatives should be 
very, very upset about this. We need to drastically reduce the 
staff that is down there and come up with some other thing for 
these prisoners because they don't deserve the good life that 
we are giving those prisoners at Guantanamo Bay.
    I yield back.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes the gentleman from Texas for 5 
minutes.
    Mr. Hurd. Thank you, Mr. Chairman.
    Commander Lippold, I want to thank you for your service. I 
was in the CIA for a decade. I started in October of 2000. I 
was on the Yemen account right before what happened with the 
Cole and spent some time in Arabia Felix on this issue. And 
thank you for what you have always done.
    Mr. Lippold. Thanks.
    Mr. Hurd. My first question is a simple question to Mr. 
Joscelyn. It is a related question about battlefield 
intelligence that we are gaining. You know, we are in active 
conflicts all over the world, and, you know, how are we, you 
know, taking prisoners and having folks that you get on the 
battlefield and collecting battlefield intelligence is critical 
in protecting our forces. How is that happening now?
    Mr. Joscelyn. As far as I can tell, it is an ad hoc process 
at best that a lot of battlefield intelligence is not being 
collected because we do not have a stable detention and 
interrogation program in place. Every expert I talked to from 
your corner of the world or previous corner of the world and 
elsewhere will tell you the value of human intelligence in 
terms of discerning what's actually going on and what our 
enemies are thinking, and I am concerned that we are not 
collecting enough of that intelligence currently.
    Mr. Hurd. Commander, do you have any opinion, sir?
    Mr. Lippold. I would agree absolutely on that point. The 
problem you have is when you don't use a place like Guantanamo 
Bay, we are--where we are bringing truly the high level and the 
most dangerous terrorists that we want to capture. Today, we 
are taking the morally lazy way and we're using drone strikes. 
Every drone strike that we use is taking out a potential 
intelligence asset that perhaps we should go after and capture 
because they truly are the ones that are going to tell us how 
the organization operates, how they conduct those operations 
because it's only operationally when you understand how your 
enemy works that you can target them, you can disrupt them, and 
then eventually defeat them. And to not do that and to not 
leverage that intelligence is a disservice to the American 
people when we are a nation at war.
    Mr. Hurd. I appreciate that, Commander.
    Mr. Chairman, I yield the balance of my time back to you.
    Mr. DeSantis. The gentleman yields back.
    Is there anybody here--if we close Guantanamo tomorrow and 
remove the detainees, either release them to other countries or 
in the United States, is there anybody here that things that 
that would cause a drop in terrorist activity around the world? 
Mr. Joscelyn?
    Mr. Joscelyn. Absolutely not.
    Mr. DeSantis. Commander?
    Mr. Lippold. No, sir.
    Mr. DeSantis. Mr. Liotta?
    Mr. Liotta. I'm not sure there'd be enough evidence to be 
able to take a hypothetical question like that, Mr. Chairman, 
to be able to make a real judgment, so I'd have to defer at 
this time.
    Mr. DeSantis. Okay. Mr. Mora?
    Mr. Mora. Sir, I think it would blunt the jihadist message 
about American injustice, and I think it would--it may--it 
can't be guaranteed but I think it would reduce the appeal of 
the jihadist message to undecided populations in the Middle 
East and elsewhere.
    Also I should say it would comfort our allies in Europe who 
see Guantanamo as a fundamentally unjust detention facility.
    Mr. DeSantis. So here with--how it would affect recruiting, 
I mean here is why I have been skeptical that it would make it 
more difficult for them to recruit. I mean, take the 9/11 
hijackers, 15 of them from Saudi Arabia, in Saudi Arabia, if a 
woman gets raped, she can end up getting stoned, and they're 
out there stoning a woman to death and do you think like when 
they are doing that they are like, oh, man, Guantanamo is just 
such a human rights violation? I mean, they are living in these 
areas where they are constantly abusing people's human rights, 
and so that is why I just don't think it is credible that it 
would change their ability to recruit, even though I know some 
people honestly feel that it would.
    I am going to recognize Mr. Lynch for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. And let me drill down 
on that a little bit more. I have to say that there are some 
people who I respect very, very much in the military that have, 
you know, decidedly strong opinions on this. One of them is our 
former national security advisor General Jim Jones, and I have 
got a quote here from him.
    He said America--and this is all--you know, the Petraeus 
approach of, you know, winning these hearts and minds and 
General, you know, trying to get the Sunni awakening going, 
again, with a couple Sunni shakes there about a month ago in 
Anbar Province. And I think what Jim Jones explained, he said, 
``America's greatest attribute in garnering support for our 
national security initiatives is our leadership and fidelity to 
our values and the principle of justice.'' He went on to say, 
``it is my firm conviction that maintaining the facility at 
Guantanamo Bay indefinitely will have a lasting and deleterious 
impact on our standing in the world.''
    Another gentleman who I respect greatly, General Martin 
Dempsey, he said that Guantanamo ``does create a psychological 
scar on our national values. Whether it should or not, it 
does.''
    And lastly, General Colin Powell, former Secretary of State 
under President Bush, has also remarked that ``Guantanamo has 
cost us a lot over the years in terms of our standing in the 
world and the way in which despots have hidden behind what we 
have done at Guantanamo.'' So, you know, those are all men that 
I respect very much, and they are in the fight and they have 
been for a long time.
    And, Mr. Mora, how is maintaining the detention facility at 
Guantanamo Bay, Cuba, contrary to our basic values as 
Americans? Can you speak to that?
    Mr. Mora. Mr. Ranking Member, if you look at political and 
human rights commentary all around the world, it's almost in 
every European country, every NATO country, Canada, Australia, 
New Zealand, Guantanamo is identified as an injustice.
    I'll point you to one source. The very respected Inter-
American Commission of Human Rights last year issued a volume 
entitled ``Closing Guantanamo.'' And in the first sentence of 
the first paragraph the executive summary it talks about the 
need to close Guantanamo because it's become a global symbol 
for injustice. Most of that is related to the--not only the 
fact that there were a number of individuals who were not 
jihadists who were sent to Guantanamo, although they've been 
since released and transferred out of the facility, but the 
military commissions has a large role to play in that.
    The fact that--according to the Inter-American Commission 
of Human Rights and international lawyers in most other 
countries of the world, the military commissions lack 
credibility because they are subject to the discipline of the 
executive branch. They're not an independent judicial body, for 
example. But also, there's been interference with attorney-
client privilege, and there's been withholding of evidence to 
defense counsel on some critical matters that might be relevant 
to the defense of their detainees.
    So all of these elements, historical and current, combine 
to reinforce the notion that rightfully or wrongfully has taken 
hold in the minds of many that Guantanamo is a symbol of 
injustice and contrary to human rights principles. I regret 
that it is so, but that's the fact, and we have to face the 
facts as they are.
    Mr. Lynch. Very good. I will yield back. Thank you.
    Mr. DeSantis. The gentleman yields back.
    I just wonder when you are talking about all this due 
process, everything, the military commissions aren't even 
enough. Well, guess what? We have guys in the field, they are 
fighting a war. They are not detectives. They aren't going to 
be out there just collecting evidence and fingerprints. That 
will lead more of our soldiers and marines to get killed for 
sure. So I don't want to go down that road. These guys should 
not be treated like they are committing civilian crimes. They 
should be treated as if they are violating the laws of war. And 
when they are being captured in accordance with that, that 
should be the prism by which we see this.
    And I fear that going the other direction where you somehow 
need to give them a quasi-civilian trial with basic 
constitutional rights almost, at the end of the day in the 
normal battlefield you are just not going to be able to do that 
without really diverting the mission. And I don't want to be 
doing that.
    So I appreciate the witnesses here today, and I appreciate 
your testimony. And I know this will be an issue that will 
continue to rear its head. And we will certainly be 
investigating any future detainees who are released and pose a 
danger to our country.
    This hearing is now adjourned.
    [Whereupon, at 3:55 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
